CERTIFICATE OF SERVICE
I, Ricky Haywood-Watson, do swear or declare that on this date, January 11,
2021, pursuant to Supreme Court Rule 29 and the Court’s order on April 15, 2020
encouraging parties to serve filings through electronic means, I have served the
enclosed petition for writ of certiorari on each party to the above proceeding, or that
party’s counsel, and on every other person required to be served by email.
The names and addresses of those served are as follows:

Kim K. Ogg
Harris County District Attorney
da@dao.hctx.net

Stacey M. Soule
State Prosecuting Attorney
stacev.soule@sna.texas.gov
information@sna.texas.gov

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 11, 2021.

RICKY HAYWOOD-WATSON
PETITIONER

24

